No. ___-_____

In the Supreme Court of the United States
_________

QUINN ALEXANDER MAREZ, PETITIONER
v.
GUILLERMO VIERA ROSA, RESPONDENT
_________
ON PETITION FOR WRIT OF CERTIORARI TO THE
COURT OF APPEALS FOR THE NINTH CIRCUIT
_________
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI
_________

Wesley A. Van Winkle
P.O. Box 2516
Eugene, OR 97402
(541)735-3170
Counsel for Petitioner

APPENDIX
TABLE OF CONTENTS
Page

APPENDIX A: Order of the Superior Court of Los Angeles denying petition
for writ of habeas corpus (November 25, 2015) . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B: Denial of petition for writ of habeas corpus by the Supreme
Court of California (April 3, 2016). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5a
APPENDIX C: Amended Report and Recommendation of United States
Magistrate Judge in United States District Court for the Central District of
California, Western Division (July 19, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . 6a
APPENDIX D: Order of the United States District Court for the Central
District of California, Western Division accepting Amended Report and
Recommendation of United States Magistrate Judge (August 30, 2019) . . 30a
APPENDIX E: Judgment of the United States District Court for the Central
District of California, Western Division (August 30, 2019) . . . . . . . . . . . . . 32a
APPENDIX F: Order of the United States District Court for the Central
District Of California, Western Division denying certificate of appealability
(August 30, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34a
APPENDIX G: Order of the United States Court of Appeals for the Ninth
Circuit denying certificate of appealability (November 20, 2020) . . . . . . 37aS

1a

APPENDIX A

SUPERIOR COURT OF CALIFORNIA
COUNTY OF LOS ANGELES

THE PEOPLE OF THE STATE OF CALIFORNIA
v.
QUINN ALEXANDER MAREZ

No. PA59953

November 25, 2015
Before Cynthia L. Ulfig, Superior Court of California, County of Los Angeles

ORDER DENYING PETITION FOR WRIT OF HABEAS CORPUS
The Court has read and considered the PETITION FOR WRIT OF
HABEAS CORPUS filed on October 9, 2015. The Court reviewed the
petition, all of the attachments, the court file, the transcripts and the court’s
notes taken during the trial. Based on the review of all the documents, the
court’s memory of the trial and witness testimony the petition is DENIED.

2a
The petition fails to demonstrate entitlement to extraordinary relief.
The petition raises issues which were not, but could have been raised
on appeal. Petitioner has failed to allege facts establishing an exception to
the rule barring habeas consideration of claims that were or should have
been raised on appeal. (In re Harris (1993) 5 Cal. 4th 813, 825-826); In re
Dixon (1953) 41 Cal.2d. 755, 759)
The issues raised in the petition either were, or could have been raised
on appeal. Unless direct remedies are inadequate, one state remedy is
ordinarily enough. (In re Rinegold (1970) 13 Cal. App. 3d 723, 730-731)
Habeas corpus generally will not lie when the claimed error could have
been, but was not, raised on appeal. (In re Dean (1970) 12 Cal. App. 3d 264,
267)
Petitioner claims ineffective assistance of appellate counsel. He states
no facts that could lead this court to the conclusion that the quality of
representation was in any way inadequate.
Appellate counsel is not required to raise issues that in counsel’s
professional judgment lack merit. (Jones v. Barnes 463 U.S. 745)
This Court has reviewed the 5 page letter mailed, by Attorney Douglas
W. Otto, to the petitioner on December 22, 2014. (Exhibit 15; pages 175-179).
It is clear from the letter that Mr. Otto has a clear understanding of the
Habeas Corpus procedure. It is equally clear that in his professional opinion
there was no basis for the petition.

3a
Petitioner also claims that his trial attorney was incompetent. The
facts underlying his claim are contained in the record and could therefore
have been raised on appeal. The petition does not disclose facts from which
the court could conclude that the representation by counsel fell below an
objective standard of reasonableness under prevailing professional norms.
(Strickland v. Washington (1984) 466 U.S. 668, 687-688). Nor has petitioner
presented evidence that but for counsel’s unprofessional errors, there is a
reasonable probability that the result of the proceeding would have been
different. (Id. at 694).
This court was the trial judge in the case. The court and jurors had
the opportunity to hear about the alleged incident that occurred between the
victim Koch and the defendant in early 2005. The testimony of Mr. Marez
regarding the events that transpired in 2005 and the date of the murder were
not credible. The defendant’s father, Candido Joe Marez, Jr. also was called
to testify to relevant information regarding the case at trial. The jury had
the opportunity to review and weigh his testimony as well.
Petitioner has failed to meet his burden of showing that but for
counsel’s alleged errors, the outcome would have been different. (Strickland
v. Washington (1984) 466 U.S. 668, 693-694; People v. Fosselman (1983) 33
Cal.3d 572, 584.) Mr. Robert Schwartz (CA bar no: 072571) was the trial
attorney for the defendant. Mr. Schwartz is a well-known and highly
respected attorney in Los Angeles County. Mr. Schwartz had tried felony

4a
cases, for at least 30 years, when he tried this case. He has always
illustrated a clear understanding of the law and how best to represent his
client. The Court would not find that his representation of Mr. Marez was in
any way incompetent nor that there would have been a different outcome.
Based on the facts of the case, the statements made and actions taken
by the various witnesses, as well as, the defendants and police investigation
presented to jury; the Court is satisfied that the jury rendered a fair and just
verdict. Further, the claims made by counsel in the Habeas Corpus petition
are irrelevant and would not change the outcome of the case.
s/ Cynthia L. Ulfig
CYNTHIA L. ULFIG
Judge, Superior Court of California, Los Angeles County

5a

APPENDIX B

THE SUPREME COURT OF THE STATE OF CALIFORNIA

In re QUINN MAREZ on Habeas Corpus

No. S200394

April 3, 2016

DENIAL OF PETITION FOR WRIT OF HABEAS CORPUS
The petition for writ of habeas corpus is denied on the merits. (See
Harrington v. Richter (2011) 562 U.S. 86, citing Ylst v. Nunnemaker (1991)
501 U.S. 797, 803.)

6a

APPENDIX C

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION

QUINN ALEXANDER MAREZ,
Petitioner
v.
GUILLERMO VIERA ROSA,
Respondent

No. CV 16-2762-DMG (DFM)

July 19, 2019
Before the Honorable Dolly M. Gee, United States District Judge of the
United States District Court for the Central District of California

AMENDED REPORT AND RECOMMENDATION OF UNITED
STATES MAGISTRATE JUDGE
This Amended Report and Recommendation is submitted to the
Honorable Dolly M. Gee, United States District Judge, under 28 U.S.C. § 636

7a
and General Order 05-07 of the United States District Court for the Central
District of California.1
I. BACKGROUND
On February 11, 2010, a Los Angeles County Superior Court jury
convicted Petitioner Quinn Alexander Marez and his codefendant Justin
Thalheimer of first-degree murder. See Clerk’s Transcript (“CT”) 570-75.2 On May
10, 2010, the trial court sentenced Petitioner to 28 years to life in prison. See CT
606-08.
Petitioner appealed. See Lodged Document (“LD”) 10. On February 8, 2012,
the California Court of Appeal affirmed the judgment in a reasoned opinion. See LD
1. On April 25, 2012, the California Supreme Court denied Petitioner’s petition for
review. See LD 17, 18. The United States Supreme Court denied certiorari on
October 15, 2012. See LD 2 at 6.
On October 9, 2015, Petitioner’s retained counsel filed a habeas petition in
the Los Angeles County Superior Court, arguing ineffective assistance of trial and
postconviction counsel. See LD 19. On November 25, 2015, that court denied the
petition in a reasoned opinion on the merits and on procedural grounds. See LD 3.
On December 15, 2015, Petitioner raised the same claim to the California Court of
Appeal, which summarily denied it on December 18. See LD 4, 20. On December 28,
The Court issued its original Report and Recommendation on March 28, 2019. See Dkt. 48.
The Court now withdraws the original Report and Recommendation and issues this
Amended Report and Recommendation to address arguments presented in Petitioner’s
objections (Dkt. 53; hereinafter, “Objections”). Although the Court’s principal conclusion is
unchanged, the parties will be permitted to file additional objections to this Amended Report
and Recommendation.

1

All citations to electronically-filed documents, except for the Clerk’s and Reporter’s
Transcripts, are to the CM/ECF pagination.

2

8a
Petitioner raised the same claim to the California Supreme Court, which summarily
denied it “on the merits” on April 13, 2016. See LD 6.
On April 21, 2016, Petitioner filed the instant Petition, which argues that trial
counsel was ineffective for failing to conduct a reasonable and adequate
investigation into his mental state. See Dkt. 1 (“Petition”) at 5. After Respondent
moved to dismiss, the Court recommended that the District Court issue an order
finding the Petition timely, denying the motion to dismiss, and ordering Respondent
to file an Answer. See Dkts. 12, 23. The District Court adopted the Report and
Recommendation on September 25, 2017. See Dkt. 27. The matter is now fully
briefed. See Dkts. 38 (Answer), 42 (Reply).
II. STATEMENT OF FACTS
The underlying facts are taken from the California Court of Appeal’s
opinion on direct review.3 Because Petitioner has not challenged these factual
findings, they are presumed to be correct. See 28 U.S.C. § 2254(e)(1);
Crittenden v. Chappell, 804 F.3d 998, 1011 (9th Cir. 2015) (finding that a
state court’s factual findings are presumed correct unless “overcome . . . by
clear and convincing evidence”).
A. The Killing of Daniel Koch
In August 2007, Petitioner and Justin Thalheimer were
living on the streets with Petitioner’s girlfriend, Emily Kent.

In all quoted sections of the state court records, “Marez” has been replaced with
“Petitioner.”

3

9a
They were no longer welcome at home because of drug and
alcohol abuse.
On the afternoon of August 25, 2007, the trio walked to
Limekiln Canyon Park in Northridge with food and a bottle of
brandy they had stolen from a grocery store. They encountered
Daniel Koch drinking beer at a picnic table near a small creek
that ran through the park. Defendants knew Koch, who was
homeless and living in the park. The trio sat down with Koch,
and the three men began sharing food and alcohol while Kent
slept. Other people came by, including Jason Smith, a friend of
Koch, who joined in both the conversation and the consumption
of alcohol. The four men became intoxicated.
About an hour after Smith arrived, Koch became
belligerent when Kent either ignored or refused his repeated
requests to pass him the bottle of brandy. Koch cursed at Kent,
enraging Petitioner, who advanced on Koch. Smith briefly
placed Petitioner in a headlock to stop him from hitting Koch.
Kent wanted to leave, and she, Petitioner and Thalheimer
headed for the north end of the park, walking roughly parallel to
the creek. After five or 10 minutes, Smith left for home through
the south end of the park.

10a
Defendants were still upset with Koch. After crossing a
bridge over the creek, they decided to return to make Koch
apologize for his rude behavior. When Kent could not dissuade
defendants from going back, she elected to wait for them on the
other side of the bridge.
Five or 10 minutes later, Thalheimer returned alone to
the bridge. He was screaming and carrying a Leatherman tool.
Both of his hands were bloody. Kent followed Thalheimer back
to the picnic table, where they found Petitioner, holding a
Maglite flashlight, which had been in his backpack earlier in the
day. Koch was lying face down on the ground, approximately
five feet away from the picnic table; he was moaning and
covered in blood.
Kent then left the park, not wanting to be a part of what
had happened, and walked to a nearby 7–Eleven store, where
defendants met up with her some 10 to 20 minutes later.
Petitioner was carrying the flashlight. Thalheimer threw his
tennis shoes on top of the convenience store. Petitioner left, after
announcing he was going back to the park to clean up. While
Petitioner was gone, Thalheimer told Kent not to talk about
what had happened in the park. Petitioner returned 10 to 20
minutes later, no longer wearing shoes. He telephoned Amanda

11a
Welch to say the trio needed a ride from the 7–Eleven store.
Welch arrived and took defendants and Kent with her to buy
gas, before returning to the convenience store. Petitioner’s
father soon showed up to drive his son home, along with Kent.
Welch dropped off Thalheimer at a bus stop.
B. The Aftermath of the Killing
The next day, Koch was found dead in the creek that
flowed near the picnic table. His body was face down; the back of
his head bore signs of trauma. There were drag marks from the
picnic table to the creek. He died from a combination of sharp
and blunt force trauma, having suffered 52 sharp force injuries,
including 42 stab wounds, of which five to the torso were
potentially fatal, and his throat had been cut. The sharp force
injuries were consistent with a Leatherman tool. Koch further
suffered 12 blunt force traumas to his head, which produced
multiple skull fractures and bleeding of the brain. A large
Maglite flashlight could have caused the blunt force injuries.
Koch was determined to have been the major donor of DNA
found on the flashlight and Leatherman tool. Petitioner could
not be excluded as a minor donor of DNA on the flashlight, while
Thalheimer was excluded as a possible additional donor. Koch’s
blood alcohol level was 0.36 percent at the time of his death.

12a
C. Defendants’ Incriminating Statements
On the night of the killing and in the days prior to their
arrest, defendants spoke with others, including Kent, Welch,
Matthew Ellerbrock, and Rayne Stanis, who attributed to one or
both

defendants

various

admissions

and

incriminatory

statements. Welch testified that en route to the bus stop,
Thalheimer admitted to her that he had cut or slashed
someone’s throat at Petitioner’s direction. Kent testified that on
the day after the killing, Petitioner confided to her that he had
hit Koch with a flashlight. The same day, Thalheimer told Kent
that he had slit Koch’s wrist and neck with the Leatherman tool.
Ellerbrock reported to police that four days after the killing he
spoke with both defendants at his home. Petitioner admitted he
“had bashed in” Koch’s head with a Maglight flashlight, and
Thalheimer admitted he had stabbed Koch and slit his throat at
Petitioner’s behest. Stanis was also at Ellerbrock’s home at the
time. She heard Petitioner tell Ellerbrock that he had killed a
homeless man by beating him with a flashlight because he had
insulted his girlfriend. Petitioner said he then got Thalheimer
involved by “egging him on” so that Thalheimer would finish
killing him. Petitioner seemed thrilled and excited as he
recounted the killing. Stanis heard Thalheimer admit he had

13a
killed a homeless man by stabbing him and then slitting his
throat, although Thalheimer did not want to talk about the
murder.
D. Petitioner’s Defense
Petitioner testified in his own defense that on the
afternoon of August 25, 2007, Thalheimer and Kent joined Koch
at a picnic table in Limekiln Canyon Park. Petitioner sat down
reluctantly; he did not trust Koch. Kent fell asleep, while the
three men shared the food, beer and a bottle of brandy. Jason
Smith arrived as it was getting dark. Kent awakened, snatched
the bottle of brandy off the table and put it between her legs,
which infuriated Koch. He cursed Kent, demanded that she give
him the bottle and attempted to pull it away from her. When
Petitioner objected, he was restrained by Smith, but managed to
free himself. Koch jumped up on the table, started screaming
that Kent was a “bitch” and threatened to kill her. Petitioner
was angry and intimidated. Kent insisted that the three of them
leave. The trio walked away from the picnic table as Koch
continued yelling.
They walked the hill towards the cement bridge over the
creek. Petitioner was still furious with Koch. When Petitioner
crossed the bridge, he caught sight of another picnic table, fell to

14a
his knees and began crying. Seeing that picnic table triggered
Petitioner’s memory of an incident in March 2005, when he was
walking through the park. Koch was sitting at the picnic table,
and when Petitioner reached the picnic table, Koch blocked his
path, insisted Petitioner sit with him, forced him to drink some
alcohol and refused to let him leave. Koch then hit Petitioner
twice in the back of his head, pulled down Petitioner’s pants and
then pulled down his own pants. Koch then put his knee on the
back of Petitioner’s calf. Petitioner managed to get away and ran
home. He never told anyone about the incident, which made him
feel ashamed and continuously depressed. After the incident,
Petitioner began consuming alcohol and missing school.
Remembering the 2005 attempted molestation made
Petitioner angry. He remained on the ground for five minutes
crying and growing angrier. Petitioner believed Koch’s attempts
to remove the bottle from between Kent's legs were sexual, and
Koch would engage in another sexual assault. When Thalheimer
turned to head back to the picnic table, Petitioner took the
Maglite flashlight and followed him. Petitioner intended to
confront Koch and to ensure Thalheimer’s safety.
As Petitioner neared the picnic table, Koch charged and
struck Petitioner in the jaw. Petitioner immediately recalled the

15a
attempted molestation. Petitioner did not intend to kill Koch,
but, fearing for his life, he struck Koch with the flashlight about
10 times. Koch continued throwing punches until Petitioner fell
to the ground. Thalheimer then tackled Koch, and knocked him
into the picnic table. Thalheimer repeatedly stabbed Koch with
the Leatherman tool until Koch went still. Thalheimer then left
with the Leatherman tool and went to find Kent. The two of
them returned to the picnic bench, before Kent left the park.
Thalheimer dragged Koch’s now inert body to the creek.
Petitioner dropped the flashlight near the picnic table and left
the park. Thalheimer stayed at the park, but he later reunited
with Petitioner and Kent at the 7–Eleven store. Petitioner
subsequently returned to the park to retrieve a backpack that
had been left behind.
Petitioner denied having told Matthew Ellerbrock or
Rayne Stanis about the killing. He admitted prior juvenile
adjudications for felony grand theft and “felony assault on a
peace officer.”
E. Justin Thalheimer’s Defense
Thalheimer’s testimony in his own defense at trial was
largely consistent with Petitioner’s testimony up to the point
where Petitioner became enraged over Koch’s behavior towards

16a
Kent. According to Thalheimer, as soon as Petitioner exhibited
his anger, Thalheimer moved away from the picnic table and
walked towards the creek. Thalheimer was not at all upset with
Koch, and he feared Petitioner would do “something crazy”.
After Jason Smith briefly placed Petitioner in a headlock,
Petitioner and Kent decided to leave the park. Thalheimer
apologized to Koch for leaving so abruptly and followed
Petitioner and Kent towards the north end of the park.
Thalheimer left behind the Leatherman tool on the picnic table.
As they were walking, Petitioner became hysterical. He insisted
they go back and kill Koch because of his behavior towards
Kent. Thalheimer steadfastly refused, and Petitioner finally
agreed he would be satisfied with an apology from Koch.
When Thalheimer reached the picnic table, he sat down
with Koch and persuaded him to apologize when Petitioner
arrived. At the same time, Petitioner snuck up on Koch and
attacked him in a rage, hitting him with the Maglite flashlight
and stabbing him with the Leatherman tool. Petitioner seemed
so out of control that Thalheimer did not intervene to stop the
attack, fearing Petitioner would harm him too. Thalheimer
moved out of the way in shock. Petitioner gave Thalheimer the
Leatherman tool, telling him to finish off Koch. Thalheimer

17a
tossed the weapon back to Petitioner and left to find Kent. By
the time the two of them returned to the picnic table, Petitioner
had dragged Koch’s body into the creek and was trying to drown
him. Thalheimer admitted throwing his tennis shoes on the roof
of the 7–Eleven, concerned about the footprints he had left in
the park.
Thalheimer denied having made any admissions or
incriminatory statements about the killing to Welch, Kent,
Ellerbrock or Stanis. Thalheimer admitted he had prior juvenile
adjudications for felony offenses involving moral turpitude. He
also

admitted

he

had

taken

a

motor

vehicle

without

authorization. Later in the proceedings, Thalheimer testified
that he had admitted in juvenile court to having committed
assault with a deadly weapon on a peace officer. The parties
stipulated that Thalheimer had a second juvenile adjudication
for assault with a deadly weapon on a peace officer. Thalheimer
also admitted at trial to having used and sold drugs and to
having left a drug treatment center before completing his courtordered rehabilitation program.
Donna Levy, a friend of Thalheimer, testified on his
behalf that Rayne Stanis and Matthew Ellerbrock said that

18a
Petitioner had boasted to them about the killing, but that
Thalheimer had never mentioned it to them.
LD 1 at 3-8 (footnotes omitted).
III. STANDARD OF REVIEW
Under the Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”), a petitioner may obtain relief on federal habeas claims that have
been “adjudicated on the merits in state court proceedings” only if the state
court’s adjudication resulted in a decision: (1) “contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined
by the Supreme Court of the United States;” or (2) “based on an unreasonable
determination of the facts in light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d).
Under the “contrary to” clause, a federal habeas court may grant the
writ if the state court “arrives at a conclusion opposite to that reached by [the
U.S. Supreme] Court on a question of law or if the state court decides a case
differently than [the U.S. Supreme] Court has on a set of materially
indistinguishable facts.” Williams v. Taylor, 529 U.S. 362, 412-13 (2000).
Under the “unreasonable application” clause, a federal habeas court may
grant the writ if the state court “identifies the correct governing legal
principle from [the U.S. Supreme] Court’s decisions but unreasonably applies
that principle to the facts of the prisoner’s case.” Id. at 413.

19a
Here, the Los Angeles County Superior Court denied Petitioner’s claim
in a reasoned opinion both on procedural grounds and on the merits. The
California Court of Appeal summarily denied the claim, followed by the
California Supreme Court’s summary denial “on the merits.” The Court thus
looks through the silent denials to determine whether the Superior Court’s
merits adjudication of Petitioner’s claim is unreasonable or contrary to
clearly established federal law. See Wilson v. Sellers, 138 S. Ct. 1188, 1192
(2018).4
The U.S. Supreme Court has vigorously and repeatedly affirmed that
AEDPA requires federal habeas courts give a heightened level of deference to
state court decisions. See Dunn v. Madison, 138 S. Ct. 9, 12 (2017) (per
curiam). In all, AEDPA “imposes a highly deferential standard for evaluating
state-court rulings and demands that state-court decisions be given the
benefit of the doubt.” Hardy v. Cross, 565 U.S. 65, 66 (2011) (per curiam)
(citation omitted). “If this standard is difficult to meet, that is because it was
meant to be.” Harrington, 562 U.S. at 102.
IV. DISCUSSION
Petitioner contends that trial counsel was ineffective in failing to
conduct a reasonable and adequate investigation, thereby failing to introduce

The Court thus agrees with Petitioner (see Objections at 8-9) that the “any argument or
theory” standard of Harrington v. Richter, 562 U.S. 86 (2011), does not apply.

4

20a
a defense that Petitioner lacked premeditation and deliberation, the
prerequisites to first-degree murder. See Petition at 5.5
A.

Review Before the Superior Court
On habeas review, Petitioner argued to the Superior Court that trial

and postconviction counsel failed to adequately investigate, prepare, and
present a defense that Petitioner lacked premeditation and deliberation, the
prerequisites to first-degree murder. See LD 19. Petitioner noted that despite
enduring a “tortured childhood” and sexual assault at the hands of the
victim, trial counsel did not develop his social history or retain proper
experts. See id. at 56. Additionally, trial counsel introduced none of the
“abundant and readily available evidence” regarding Petitioner’s diminished
actuality at the time of the homicide. Id. at 67. Petitioner’s habeas expert
opined that individuals with a similar social history are less able to regulate
emotions and engage in deliberative reasoning, especially while intoxicated.
See id.
The Superior Court denied Petitioner’s claim on the merits:
The petition does not disclose facts from which the court
could conclude that the representation by counsel fell below an
objective

standard

of

reasonableness

under

prevailing

To the extent Petitioner challenges the effectiveness of his postconviction counsel, such a
claim fails outright because there is no constitutional right to an attorney in state
postconviction proceedings. See Coleman v. Thompson, 501 U.S. 722, 752 (1991). Petitioner
argues that Coleman was modified in part by Martinez v. Ryan, 566 U.S. 1, 9-10 (2012), in
which the Supreme Court held that ineffective postconviction counsel may establish cause for
a procedural default. See Objections at 10-11. Martinez has no relevance here insofar as the
California Supreme Court denied the Petition on the merits, not on procedural grounds.

5

21a
professional norms. (Strickland v. Washington (1984) 466 U.S.
668, 687-688). Nor has petitioner presented evidence that but for
counsel’s unprofessional errors, there is a reasonable probability
that the result of the proceeding would have been different (Id.
at 694).
The court was the trial judge in this case. The court and
jurors had the opportunity to hear about the alleged incident
that occurred between the victim Koch and the defendant in
early 2005. The testimony of Petitioner regarding the events
that transpired in 2005 and the date of the murder were not
credible. Petitioner’s father, Candido Joe Marez, Jr. also was
called to testify to relevant information regarding the case at
trial. The jury had the opportunity to review and weigh his
testimony as well.
Petitioner has failed to meet his burden of showing that
but for counsel’s alleged errors, the outcome would have been
different. (Strickland v. Washington (1984) 466 U.S. 668, 693694; People v. Fosselman (1983) 33 Cal.3d 572, 584.) Mr. Robert
Schwartz (CA bar no: 072571) was the trial attorney for the
Petitioner. Mr. Schwartz is a well-known and highly respected
attorney in Los Angeles County. Mr. Schwartz had tried felony
cases, for at least 30 years, when he tried this case. He has

22a
always illustrated a clear understanding of the law and how best
to represent his client. The Court would not find that his
representation of Petitioner was in anyway incompetent nor
that there would have been a different outcome.
LD 3 at 1-2.
B.

Relevant Law
Strickland provides the clearly established law governing Petitioner’s

ineffective assistance claim. Under Strickland’s two-pronged approach, an
individual must show “counsel’s performance was deficient” and “the deficient
performance prejudiced the defense.” 466 U.S. at 687.
Counsel’s representation is deficient if it falls “below an objective
standard of reasonableness,” as measured by prevailing professional norms.
Id. at 687-88. Because “it is all too easy” for courts to second guess errors in
hindsight, id. at 689, Strickland mandates a “strong presumption” that
counsel acted “for tactical reasons rather than through sheer neglect,”
Yarborough v. Gentry, 540 U.S. 1, 8 (2003) (per curiam). To overcome this
strong presumption, Petitioner must show counsel’s errors were “so serious
that counsel was not functioning as the ‘counsel’ guaranteed the defendant by
the Sixth Amendment.” Strickland, 466 U.S. at 687.
With respect to prejudice, Petitioner must show that “there is a
reasonable probability that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” Id. at 694. “A reasonable

23a
probability is a probability sufficient to undermine confidence in the
outcome.” Id. “Th[is standard] requires a substantial, not just conceivable,
likelihood of a different result.” Cullen v. Pinholster, 563 U.S. 170, 189 (2011)
(internal quotation marks and citation omitted).
In evaluating ineffective assistance of counsel claims brought under
AEDPA, a federal court “must ask whether the state court was unreasonable
in its application of Strickland, a question different from asking whether
defense counsel’s performance fell below Strickland’s standard.” Bemore v.
Chappell, 788 F.3d 1151, 1162 (9th Cir. 2015). “AEDPA review must
[therefore] be doubly deferential” for ineffective assistance of counsel claims,
in order “to afford both the state court and the defense attorney the benefit of
the doubt.” Woods v. Donald, 135 S. Ct. 1372, 1376 (2015) (per curiam)
(citations omitted). “The question is whether there is any reasonable
argument that counsel satisfied Strickland’s deferential standard.” Bemore,
788 F.3d at 1162 (citing Richter, 562 U.S. at 105).6 “Surmounting Strickland’s
high bar is never an easy task.” Padilla v. Kentucky, 559 U.S. 356, 371 (2010).
C.

Analysis
Petitioner claims that trial counsel was deficient because he failed to

sufficiently investigate and present evidence regarding Petitioner’s mental
Petitioner objects that the quoted language is inapplicable after the Supreme Court’s
decision in Wilson. See Objections at 4. The Court disagrees. Wilson confirmed that federal
habeas courts should employ a “look through” presumption, but it did not eliminate the
“doubly deferential” review of ineffective assistance claims. As recently explained by the
Eleventh Circuit, “the more precise question [after Wilson] may be whether there is any
reasonable argument that counsel satisfied Strickland’s deferential standards under the
state court’s reasoning.” Melton v. Attorney General, 769 F. App’x 803, 807 n.5 (11th Cir.
2019) (citing Wilson, 138 S. Ct. at 1191-92).

6

24a
state. See Petition at 5.7 Petitioner argues that had counsel obtained experts
to look into his background and mental health, counsel could have presented
powerful evidence to the jury that Petitioner acted with rage instead of
premeditation and deliberation, the prerequisites to first degree murder. See
id.
1. Deficient Performance
“There is no clear Supreme Court case law always requiring a mental
health investigation at the guilt . . . phase.” Gonzalez v. Wong, 667 F.3d 965,
991 (9th Cir. 2011). Nevertheless, “[t]rial counsel has a duty to investigate a
defendant’s mental state if there is evidence to suggest that the defendant is
impaired.” Douglas v. Woodford, 316 F.3d 1079, 1085 (9th Cir. 2006).
Petitioner’s trial counsel sufficiently fulfilled this duty in the instant case.
Trial counsel conducted an investigation into Petitioner’s mental
health. In denying Petitioner’s habeas petition, the Superior Court had before
it a letter written by Douglas W. Otto, Petitioner’s original habeas counsel.
Otto wrote that he explored Petitioner’s claim that trial counsel had failed to
investigate the issue of Petitioner’s molestation by the victim in 2005. See
Dkt. 2-2 at 27-29. Otto learned that trial counsel referred Petitioner to Dr. Hy
7

Petitioner objects that the Superior Court acted unreasonably when it did not hold an
evidentiary hearing and instead “relied largely on [its] memory of the trial and knowledge of
trial counsel.” Objections at 22-28. These claims (along with several others mentioned) were
not raised in the Petition. Regardless, the Ninth Circuit has explained that evidentiary
hearings are not a per se requirement for a state court to reasonably determine that a
petitioner’s allegations are not credible or do not justify relief. See Lambert v. Blodgett, 393
F.3d 943, 969 (9th Cir. 2004). The relevant question is whether the Superior Court’s view of
the record absent an evidentiary hearing was objectively reasonable in its finding of no
deficiency or prejudice. See Williams, 529 U.S. at 409-11. As explained below, the Court
believes it was.

25a
Malinek, a clinical and forensic psychologist. See id. at 28. Dr. Malinek
provided Otto with the raw data of an analysis of two separate personality
tests, the Minnesota Multiphasic Personality Inventory (“MMPI”) and the
Millon Clinical Multiaxial Inventory (“MCMI”).8 See id.; Dkt. 2-4 at 45 (“I
gave [Petitioner] 2 personality tests and the reports were faxed to your office,
along with the answer sheets and results of a cognitive screening test.”). Dr.
Malinek stated that no report was prepared “because the results of the
personality tests were not favorable.” Dkt. 2-2 at 28. Otto wrote that trial
counsel “wouldn’t have wanted to introduce such a report at trial” and that “it
became clear to me that [trial counsel] had not been ineffective in that he had
actually explored the issue of your molestation by [the victim] in a
professional way.” Id. In addition, according to Petitioner’s habeas counsel,
Dr. Malinek believed Petitioner lied about the molestation and “malingered”
his psychological tests. See Dkt. 2, Memorandum of Points and Authority
(“MPA”) at 72. Given this information, trial counsel’s strategic choice not to
pursue a more detailed mental health investigation or have Dr. Malinek
testify was not unreasonable under Strickland. See Atwood v. Ryan, 870 F.3d
1033, 1062-63 (9th Cir. 2017) (finding trial counsel’s decision to not conduct
further investigation of petitioner’s background and mental state was not
unreasonable given the evidence available at the time).

Petitioner’s expert references both tests in her declaration supporting the Petition. See Dkt.
2-4 at 3.

8

26a
Petitioner argues that Dr. Malinek should have run more tests and
that he was not properly trained in sexual victimization. See MPA at 71-72.
But as pointed out by Respondent, Dr. Malinek is frequently relied on as an
expert witness or nontestifying expert witness in cases that deal with trauma
and sexual victimization. See, e.g., Murillo v. ABM Indus. Inc., No. F070023,
2017 WL 6032590, at *9 (Cal. Ct. App. Dec. 6, 2017) (administering MMPI
and MCMI tests to alleged sexual assault victim). Although Petitioner now
prefers a different expert, “[t]he choice of what type of expert to use is one of
trial strategy and deserves ‘a heavy measure of deference.’” Turner v.
Calderon, 281 F.3d 851, 876 (9th Cir. 2002) (quoting Strickland, 466 U.S. at
691). Petitioner has not presented evidence demonstrating that Dr. Malinek
was unqualified to assess Petitioner. Counsel’s reliance on Dr. Malinek was
thus “within the wide range of professionally competent assistance.” Harris v.
Vasquez, 949 F.2d 1497, 1525 (9th Cir. 1990).
Petitioner also claims trial counsel did not present a defense that he
lacked the specific intent to commit first degree murder. See MPA at 73-75.
To the contrary, trial counsel spent ample time arguing that by acting in the
heat of passion, Petitioner could not have premeditated the victim’s killing.
See RT 6372-73, 6393-95. For instance, counsel argued in closing that if the
jury “look[ed] at the full picture,” they would conclude “that this had to be a
killing of passion, a killing of rage, a killing in—upon a sudden quarrel or in

27a
the heat of passion.” RT 6372. Indeed, counsel’s strategy was to argue
fervently for voluntary manslaughter.
2. Prejudice
Petitioner also has not met his burden to establish that the State
court’s prejudice finding was unreasonable. To establish a legal defense to
first degree murder, “a defendant must prove that he lacked the ability to
premeditate and deliberate.” Douglas, 316 F.3d at 1087.
Petitioner contends that his prior sexual assault by the victim “was not
in any real dispute,” but that without an expert, “the jury had no basis for
understanding what humanly reaction might be expected from a sexual
assault victim confronted by events that trigger recall of a prior attack.” MPA
at 77. To the contrary, the prosecution argued that Petitioner fabricated the
attempted sexual molestation, a position shared by Dr. Malinek. Petitioner
presumes without explanation that the jury credited his testimony regarding
the alleged assault, an assumption that was rejected by the Superior Court:
“The court and jurors had the opportunity to hear about the alleged
incident that occurred between the victim Koch and the defendant in early
2005. The testimony of Petitioner regarding the events that transpired in
2005 and the date of the murder were not credible.” LD 3 at 2. The Superior
Court’s conclusion was not unreasonable.
Moreover, there was extensive evidence that Petitioner’s actions were
premeditated and reflected significant forethought. Several witnesses

28a
attributed various admissions and incriminatory statements to Petitioner
and his codefendant, Thalheimer. Welch testified that Thalheimer admitted
that he slashed someone’s throat at Petitioner’s direction. See RT 1837-41,
1851, 1881-82, 1889-93, 1914. Petitioner told Ellerbrock that he had
“bash[ed] in” Koch’s head with a Maglite flashlight. CT 317. Ellerbrock also
testified that Petitioner was “yelling at [Thalheimer] to finish off the job,” and
Thalheimer admitted he stabbed Koch and slit his throat at Petitioner’s
urging. CT 317-22; see also RT 3090-96, 3104-07, 3648-57, 4216-18. Stanis
heard Petitioner tell Ellerbrock that he had killed a homeless man by beating
him with a flashlight because he had insulted his girlfriend. See RT 2116-17.
Stanis also said that Petitioner seemed thrilled and excited to recount details
of the murder. See RT 2113-20, 2137, 2163, 3090-91. The killing also
suggested premeditation: Koch was highly intoxicated and Petitioner
personally administered 12 blunt force injuries before inflicting 52 stab
wounds or encouraged Thalheimer to finish off Koch by inflicting them.
Furthermore, as noted by the California Court of Appeal, the trial
court gave a heat of passion instruction, which included the sentence: “In
deciding whether the provocation was sufficient, consider whether a [sober]
person of average disposition would have been provoked and how such a
person would react in the same situation knowing the same facts.” LD 1 at
26. The trial court further instructed that “[h]eat of passion does not require
anger, rage or any specific emotion. It can be any violent or intense emotion

29a
that causes a person to act without due deliberation and reflection.” Id. at 29.
Last, the trial court instructed the jury that, in considering whether
Petitioner acted in imperfect self-defense, “[i]f you find Daniel Koch
threatened or harmed [Petitioner] in the past, you may consider that
information in evaluating [Petitioner’s] beliefs.” Id.
On this record, Petitioner has not shown that but for counsel’s alleged
errors, the outcome would have been different.
V. CONCLUSION
Habeas relief is unwarranted. IT IS THEREFORE RECOMMENDED
that the District Judge issue an Order: (1) accepting this Amended Report
and Recommendation; and (2) directing that judgment be entered denying
the Petition and dismissing this action with prejudice.
s/ Douglas F. McCormick
DOUGLAS F. McCORMICK
United States Magistrate Judge

30a

APPENDIX D

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION

QUINN ALEXANDER MAREZ,
Petitioner
v.
GUILLERMO VIERA ROSA,
Respondent

No. CV 16-2762-DMG (DFM)

August 30, 2019
Before the Honorable Dolly M. Gee, United States District Judge of the
United States District Court for the Central District of California

ORDER ACCEPTING AMENDED REPORT AND
RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE
Under 28 U.S.C. § 636, the Court has reviewed the Petition, the other
records on file herein, and the Amended Report and Recommendation of the

31a
United States Magistrate Judge. Further, the Court has engaged in a de novo
review of those portions of the Amended Report and Recommendation to
which objections have been made. The Court accepts the report, findings, and
recommendations of the Magistrate Judge.
IT IS THEREFORE ORDERED that Judgment be entered denying the
Petition on the merits and dismissing this action with prejudice.
s/ Dolly M. Gee
DOLLY M. GEE
United States District Judge

32a

APPENDIX E

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION

QUINN ALEXANDER MAREZ,
Petitioner
v.
GUILLERMO VIERA ROSA,
Respondent

No. CV 16-2762-DMG (DFM)

August 30, 2019
Before the Honorable Dolly M. Gee, United States District Judge of the
United States District Court for the Central District of California

JUDGMENT
Pursuant to the Court’s Order Accepting the Amended Report and
Recommendation of United States Magistrate Judge,

33a
IT IS ADJUDGED that the Petition is denied and this action is
dismissed with prejudice.
s/ Dolly M. Gee
DOLLY M. GEE
United States District Judge

34a

APPENDIX F

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION

QUINN ALEXANDER MAREZ,
Petitioner
v.
GUILLERMO VIERA ROSA,
Respondent

No. CV 16-2762-DMG (DFM)

August 30, 2019
Before the Honorable Dolly M. Gee, United States District Judge of the
United States District Court for the Central District of California

ORDER DENYING CERTIFICATE OF APPEALABILITY
Rule 11 of the Rules Governing Section 2254 Cases in the United
States District Courts provides:

35a
(a) Certificate of Appealability. The district court must
issue or deny a certificate of appealability when it enters a final
order adverse to the applicant. Before entering the final order,
the court may direct the parties to submit arguments on
whether a certificate should issue.

If the court issues a

certificate, the court must state the specific issue or issues that
satisfy the showing required by 28 U.S.C. § 2253(c)(2). If the
court denies a certificate, the parties may not appeal the denial
but may seek a certificate from the court of appeals under
Federal Rule of Appellate Procedure 22. A motion to reconsider
a denial does not extend the time to appeal.
(b) Time to Appeal. Federal Rule of Appellate Procedure
4(a) governs the time to appeal an order entered under these
rules. A timely notice of appeal must be filed even if the district
court issues a certificate of appealability.
Under 28 U.S.C. § 2253(c)(2), a Certificate of Appealability may
issue “only if the applicant has made a substantial showing of the
denial of a constitutional right.” The Supreme Court has held that this
standard means a showing that “reasonable jurists could debate
whether (or, for that matter, agree that) the petition should have been
resolved in a different manner or that the issues presented were

36a
‘“adequate to deserve encouragement to proceed further.”’” Slack v.
McDaniel, 529 U.S. 473, 483-84 (2000) (citation omitted).
Here, the Court finds and concludes that Petitioner has not
made the requisite showing with respect to the claims alleged in the
Petition. Accordingly, a Certificate of Appealability is denied.
s/ Dolly M. Gee
DOLLY M. GEE
United States District Judge

37a

APPENDIX G

UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

QUINN ALEXANDER MAREZ,
Petitioner-Appellant
v.
GUILLERMO VIERA ROSA,
Respondent-Appellee

No. 19-56127

November 20, 2020
Before the Honorable Sandra Segal Ikuta and the Honorable Eric David
Miller, United States Court of Appeals for the Ninth Circuit
ORDER
The request for a certificate of appealability (Docket Entry No. 2) is
denied because appellant has not made a "substantial showing of the denial

38a
of a constitutional right." 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell,
537 U.S. 322, 327, 123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003).
s/ Sandra Segal Ikuta
SANDRA SEGAL IKUTA
United States Court of Appeals for the Ninth Circuit
s/ Eric David Miller
ERIC DAVID MILLER
United States Court of Appeals for the Ninth Circuit

